                                                       3



                                                     1 ,          NATIONAL SCIENCE FOUNDATION                                 .
                                                                       ARLINGTON, VA 2 2 2 3 0




                                Office of
                            Inspector General



                            MEMORANDUM

                                         DATE:        April 21, 395
                                                      J
-   . . . . . . . . . . .
                                          FROM :
                               ............
                                                                                                 ......   .................       .....   -.- . .   .........

                                              VIA:

                             SUBJECT: Allegation of Improper Actions at
                                               TO:    Case No. I 9 4 0 2 0 0 0 5

                            On February 7, 1 9 9 4 , we received a
                            by a grantee at the U
                            The complainant, Dr.
                            principal investigat
                            oversubscribed on her teaching and research efforts; employed her
                            daughter under the grant; and may have abused travel expenses under
                            the grant.
                        We examined account summaries of Dr.            most recent NSF
                        grants. We found no evidence that Dr.           aughter was paid
                        off the grants, or that budgeted trave           g approximately
                        $2,400) was abused. We also found that Dr. c o m m i t t e d only


                                                                                                                                           #
                        one month of effort to NSF-funded research.
                        On April 21, 1 9 9 4 we again interviewed the complainant, Dr.
                        in an attempt to gather further information. Dr.
                        that he did not know any details other than what he ha pr viously
                        related to us, and was unaware of any other possible improprieties:
                        As we found no evidence to substantiate the allegations, further
                        investigation of the allegations is not warranted at this time.
                        This case is closed.
